No. 19In The
UNITED STATES SUPREME COURT
______
MICHAEL A. DEEM
Applicant,
v.
JOHN P. COLANGELO, JUSTICE OF THE SUPREME COURT,
COUNTY OF WESTCHESTER,
ALAN D. SCHEINKMAN, PRESIDING JUSTICE, SUPREME COURT OF THE
STATE OF NEW YORK – APPELLATE DIVISION,
SECOND JUDICIAL DEPARTMENT,
LAWRENCE K. MARKS, CHIEF ADMINISTRATIVE JUDGE,
STATE OF NEW YORK,
JANET DiFIORE, CHIEF JUDGE, STATE OF NEW YORK, and
LORNA M. DiMELLA-DEEM
Respondents.
______
Application for an Extension of Time Within Which to File a Petition for a
Writ of Certiorari to the New York Court of Appeals
______
To the Honorable Ruth Bader Ginsburg, Associate Justice of the
United States Supreme Court and Circuit Justice for the Second Circuit
Michael A. Deem, Pro Se
26 Keystone Road
Yonkers, NY 10710
914-482-3867
deem1779@gmail.com

To the Honorable Ruth Bader Ginsburg, Associate Justice of the United
States Supreme Court and Circuit Justice for the Second Department:
Applicant, Michael A. Deem, pro se, respectfully requests an extension of
time to file a petition for writ of certiorari. Sup. Ct. R. 13.5. The earliest deadline for
Applicant to file his petition is September 4, 2019, which is ninety days from June
6, 2019, the date the New York Court of Appeals issued an order dismissing
Applicant’s appeal. For good cause set forth herein, Applicant requests that this
deadline be extended by sixty days so that the new deadline would be Monday,
November 4, 2019.1
BACKGROUND
This case challenges a custom and practice of the New York State Supreme
Court Appellate Division, Second Judicial Department (2d Dep’t) and/or New York
State Unified Court System (NYS UCS) of denying litigants in custody disputes all
discovery, even when minimum standards of child care have been provided.
The matrimonial court monopolizes all discovery through court appointed
actors (attorneys for the children and forensic evaluators) under threat of sanctions,
including contempt of court, preclusion of evidence at trial and jail. Litigants are
compelled to pay the fees and expenses of court appointed actors, at exorbitant rates
without caps on hours to be devoted or fees charged, regardless of how they fulfill
their obligations or what they recommend to the matrimonial court.

Pursuant to Supreme Court Rule 30.1, one day was added to this calculation to move the due date
from Sunday, November 3, 2019, to the “next day that is not a Saturday, Sunday, federal legal
holiday [], or day on which the Court building is closed,” namely, Monday November 4, 2019.
1

2

The instant matter commenced as a hybrid Article 78 proceeding and civil
rights action in the 2d Dep’t seeking mandamus to compel and for prohibition, and
declaratory action under state law and 42 U.S.C. § 1983.
The complaint/petition alleged violation of Applicant’s rights to: 1) free
speech under the state and federal constitutions; 2) equal protection under the state
and federal constitutions; 3) due process under the state and federal constitutions;
4) parental relations under the state and federal constitutions; and 5) “divorce by
judicial proceedings” under the state constitution. The 2d Dep’t transferred the
matter to the 3d Dep’t, sua sponte.
The New York State Solicitor General appeared for the state defendants and
filed a motion to dismiss for: 1) lack of personal jurisdiction; 2) a claim under 42
U.S.C. § 1983 cannot be combined with a state claim for mandamus; 3) there is no
clear legal right to discovery in custody disputes; 4) because the “best interest of the
child” standard is statutory it cannot be challenged; and 5) the writs for mandamus
and prohibition should be dismissed, and not converted to claims for declaratory
judgment pursuant to controlling case law.
The 3d Dep’t granted the Solicitor General’s motion and dismissed the matter
without opinion.
OPINION BELOW
Applicant appealed as of right to the New York State Court of Appeals. That
court dismissed the matter “upon the ground that no substantial constitutional
question is directly involved.” I submit, the NYS UCS is unwilling or unable to

3

address the constitutional issues that are in fact directly involved. The decision is
attached at Appendix A.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1257.
REASON EXTENSION IS JUSTIFIED
The specific reasons why an extension of time is justified are:
After eighteen years,2 Applicant retired from the practice of law in 2016. His
vocation is now far removed from law and he can no longer afford counsel. The only
time he has to devote to the instant matter is a few hours during the week,
weekends and federal holidays. And, Applicant no longer has access to legal
research software, which would save countless hours.
Moreover, Applicant is involved in six ongoing related matters:
1. Deem v. DiMella-Deem, 68616/17 (Westchester Cnty S. Ct.) (Post-trial
briefs and appeals are pending in the underlying divorce and custody matter);
2. Deem v. DiMella-Deem, File No. 153622 (White Plains Family Ct.) (High
conflict family court proceedings where Applicant’s parental rights have in effect
been summarily terminated based on fabricated allegations, and without due
process of law pursuant to customs and practices within the 2d Dep’t and/or NYS
UCS that deny: (1) all discovery for restraining orders; and (2) all pre and post

Applicant was admitted to the bar of this Court in about 2009. This is his first appearance before
the Court.
2

4

deprivation hearings. Applicant’s children were not even involved in those
proceedings.);
3. Deem v. DiMella-Deem, et al., 18-2266cv (2d Cir.) (Oral argument is
scheduled for August 26, 2019 and involves § 1983 claims that arose during the
related family court proceedings);
4. Deem v. DiMella-Deem, et al., 19-1630cv (2d Cir.) (Applicant filed his brief
on August 1, 2019. That matter involves additional § 1983 claims alleging a
conspiracy between Applicant’s estranged wife, her attorney and the family court.);
5. Deem v. DiMella-Deem, A.D. No. ____ (A.D. 3d Dep’t) (Applicant is
appealing the order appointing an attorney for the children, even though minimum
standards of care were provided, and compelling Applicant to pay a portion of the
attorney for the children’s legal fees and expenses); and
6. Applicant is drafting a complaint that will challenge: (a) customs and
practices within the 2d Dep’t and/or NYS UCS that commit fraud on every law
enforcement agency and tribunal charged with enforcing restraining orders
pursuant to 18 U.S.C. § 2265. The 2d Dep’t and/or NYS UCS represent(s) that
subjects of restraining orders will receive or have received due process, when in fact
they are denied it, summarily; and (b) New York State’s system of electing,
appointing and supervising judges in family court and matrimonial parts in state
supreme court because the current system permits unwritten, unconstitutional
customs and practices that result in unconstitutional decisions and orders that hurt
children by separating them from loving, loved, caring and cared for fathers.

5

Applicant prays the above demonstrates he cannot comply with the 90-day
filing requirement. He has limited resources to devote to the instant and related
matters. Applicant and his children will be severely prejudiced if the instant
application is denied.

CONCLUSION
For the foregoing reasons and good cause shown, Applicant respectfully
requests that this Court grant this application for an extension of time to file a
petition for writ of certiorari.
Dated: August 3, 2019
Respectfully submitted,

~/?i)~
Michael A. Deem, Pro Se

I swear under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.

· ~ d ~Michae1 A. Deem

6

State ofNew York
Court ofAppeals
Decided and Entered on the
sixth day of June, 2019

Present, Hon. Jenny Rivera, Senior Associate Judge, presiding.
SSD26
In the Matter of Michael A. Deem,
Appellant,
V.

John P. Colangelo, &c., et al.,
Respondents.

Appellant having appealed to the Court of Appeals in the above title;
Upon the papers filed and due deliberation, it is
ORDERED, that the appeal is dismissed without costs, by the Court™ sponte,
upon the ground that no substantial constitutional question is directly involved.
Chief Judge Difiore took no part.

John P. Asiello
Clerk of the Court

Appendix A

